<html>
<title> - THE IMPORTANCE OF MAP-21 REAUTHORIZATION: PERSPECTIVES FROM OWNERS, OPERATORS, AND USERS OF THE SYSTEM</title>
<body><pre>[Senate Hearing 114-20]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-20
 
               THE IMPORTANCE OF MAP_21 REAUTHORIZATION:
                  PERSPECTIVES FROM OWNERS, OPERATORS,
                        AND USERS OF THE SYSTEM

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.fdsys.gpo.gov

                               __________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
94-979 PDF               WASHINGTON : 2015                     

________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e697e614e6d7b7d7a666b627e206d616320">[email&#160;protected]</a>  

               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED FOURTEENTH CONGRESS
                             FIRST SESSION

                  JAMES M. INHOFE, Oklahoma, Chairman
DAVID VITTER, Louisiana              BARBARA BOXER, California
JOHN BARRASSO, Wyoming               THOMAS R. CARPER, Delaware
SHELLEY MOORE CAPITO, West Virginia  BENJAMIN L. CARDIN, Maryland
MIKE CRAPO, Idaho                    BERNARD SANDERS, Vermont
JOHN BOOZMAN, Arkansas               SHELDON WHITEHOUSE, Rhode Island
JEFF SESSIONS, Alabama               JEFF MERKLEY, Oregon
ROGER WICKER, Mississippi            KIRSTEN GILLIBRAND, New York
DEB FISCHER, Nebraska                CORY A. BOOKER, New Jersey
MIKE ROUNDS, South Dakota            EDWARD J. MARKEY, Massachusetts
DAN SULLIVAN, Alaska

                 Ryan Jackson, Majority Staff Director
               Bettina Poirier, Democratic Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 25, 2015
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Boxer, Hon. Barbara, U.S. Senator from the State of California...     2

                               WITNESSES

Braceras, Hon. Carlos, Executive Director, Utah Department of 
  Transportation.................................................     4
    Prepared statement...........................................     7
Heminger, Steve, Executive Director, Metropolitan Transportation 
  Commission.....................................................    14
    Prepared statement...........................................    16
Riordan, Thomas J., President and CEO, Neenah Enterprises, Inc...    20
    Prepared statement...........................................    22
Gardner, David, Vice President, Supply Chain and Customer 
  Experience, Ingredion Incorporated.............................    30
    Prepared statement...........................................    32
Rowen, Walt, President, Susquehanna Glass Company................    36
    Prepared statement...........................................    38

                          ADDITIONAL MATERIAL

HTF Revenue Options..............................................    66


  THE IMPORTANCE OF MAP-21 REAUTHORIZATION: PERSPECTIVES FROM OWNERS, 
                   OPERATORS, AND USERS OF THE SYSTEM

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2015

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m. in room 
406, Dirksen Senate Building, Hon. James Inhofe (chairman of 
the committee) presiding.
    Present: Senators Inhofe, Boxer, Boozman, Crapo, Vitter, 
Rounds, Capito, Wicker, Carper, Whitehouse, Gillibrand.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing will be open.
    Let me thank the five of you who have come from far 
corners. We appreciate very much your being here. Our feeling, 
and I know I speak for Senator Boxer, we kind of need to get an 
outside the Beltway perspective. So this is the opportunity 
that we have for it. We appreciate very much the witnesses 
being here.
    Unfortunately, what used to be the best transportation 
system in the world is now deteriorating, and our global 
competitors are greatly outpacing us in infrastructure 
investment. We hear this, and we see this as we go around, we 
see what is happening in China, we see what is happening in the 
other countries. The American businesses rely on an efficient, 
reliable transportation network. More than 250 million vehicles 
traverse the highway system each year and businesses require a 
reliable transportation system.
    Now, I think anything I would say for members of this panel 
and for the five of you who have come in here to testify, it 
would be redundant. You are all familiar with the crisis that 
we are facing right now. We have Gary Ridley, whom Senator 
Boxer and I know very well, from Oklahoma, who has testified 
probably than anyone else has before this committee over the 
past 20 years or so. And the rest of you, we appreciate very 
much your being here.
    I am not going to use my time, because in case that Senator 
Vitter comes, who is the chairman of the subcommittee, I want 
him to have that opportunity. So with that, I will retain the 
balance of my time.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Welcome to today's hearing. This is the second highways 
hearing we have held this year. As I have said many times, my 
top priority this year is to pass a fiscally responsible, long-
term highway bill. I am confident that we will be successful in 
passing a bill, and I thank the witnesses for being here today 
to help us achieve that goal.
    Unfortunately, what used to be the best transportation 
system in the world is now deteriorating, and our global 
competitors are greatly outpacing us in their infrastructure 
investment. I am glad that we have manufacturers before us 
today to discuss how important transportation is to their 
businesses and the jobs they support.
    American businesses rely on an efficient and reliable 
transportation network. More than 250 million vehicles traverse 
the highway system each year and businesses require a reliable 
transportation network to operate.
    But every day, 20,000 miles of our highways slow below 
posted speed limits or experience stop-and-go conditions. This 
type of congestion has a huge negative impact on America's 
businesses.
    Unfortunately, congestion is becoming more and more of a 
problem for American businesses. In its 2013 Report Card for 
America's Infrastructure, the American Society of Civil 
Engineers gave America a ``D'' grade on the condition of the 
Nation's roads and a ``C+'' on the condition of the Nation's 
bridges.
    As we are all aware, the Federal highway program is 
operating on a short-term extension that expires at the end of 
May.
    My staff has been working with Senator Boxer's staff on a 
long-term bill that will give our partners the certainty they 
need to plan and construct important transportation projects.
    Our infrastructure investments are a partnership between 
the Federal Government and the States. We need to keep up our 
end of the bargain and pass a fully funded, long-term bill.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Senator, is it my turn?
    Senator Inhofe. Yes.
    Senator Boxer. Thank you.
    Mr. Chairman, you and I don't agree on a lot, we know that. 
But we do agree on the absolute importance of having a Class A 
transportation system. I think that this partnership that we 
have shown over the years is more critical now than perhaps 
ever, because we are just a few months away from a shutdown of 
the Highway Trust Fund. And I am going to ask unanimous consent 
to put my statement into the record, if I might.
    Senator Inhofe. Without objection. I will also put mine 
into the record.
    Senator Boxer. OK. I am going to summarize it in 2 minutes.
    Here is the thing. We are going to hear today from this 
diverse panel. I am so proud, Steve, you are here. We are 
hearing it from every stripe, from red States, from blue 
States, from purple States, from conservatives and liberals 
alike. We need a bill and we need it now.
    I want to say that last Congress, this committee, to the 
shame of the Senate and the House, and I say that knowing 
Democrats controlled the Senate, Republicans controlled the 
House, to the shame of the Senate and the House, this committee 
was the only committee to do anything on this matter. We passed 
a really good bill. We are working on another bill now.
    I had thought once we had acted, we would see all the other 
committees in both the House and Senate fall into line. They 
didn't do it. And I am very worried. Very worried, that I see 
that same kind of lackadaisical attitude about what we are 
facing.
    Look, we just averted a port strike in our great State. We 
have taken 40 percent of the imports. And what happened, and 
thanks to the Obama administration, really, they helped a lot 
on this. We all worked together, Republicans and Democrats, to 
stop that strike. And we averted it.
    But what happens to those goods? They go on trucks, mostly, 
and they go across our great Nation. They stop in Oklahoma, 
they stop all over. And if our Nation's roads are in disrepair, 
and 50 percent of them are, and our Nation's bridges are in 
danger of collapsing, and more than 60,000 of them are, we are 
in a dire circumstance.
    So I will stop at this point. I will retain my time in case 
there is an opportunity to give it to someone else later. But 
let me be clear. I don't think, Mr. Chairman, with your great 
leadership, we need a lot more hearings. I think we need to 
continue our good work our staffs have started.
    And I think we need to take the lead and get this going. 
Because what I see coming is another extension. My chairman 
knows how expensive that is, and how absurd that is. And I will 
say, if you went to the bank to get a mortgage and the banker 
looks at you and says, oh, you are great, you get the mortgage, 
but it is only for 6 months, you are not going to buy the 
house.
    Well, if we can't tell our people that they have a 
guarantee of several years at least, they are not going to 
build those roads. They are just not going to do it.
    So with that, I would retain the balance of my time.
    [The prepared statement of Senator Boxer follow:]

             Statement of Hon. Barbara Boxer, U.S. Senator 
                      from the State of California

    Today a diverse panel of witnesses will explain to this 
Committee how important a modern surface transportation system 
is for a strong economy and why Congress must act quickly to 
address our nation's infrastructure needs.
    The continued inaction by Congress to enact a long-term 
transportation bill is a disgrace. An efficient transportation 
system is key to our economic security. The U.S. economy relies 
on an interconnected transportation system--for example, we 
move goods out of major ports of entry onto congested urban 
roads and out to the rural highways that span our Nation.
    Federal funding is crucial to keeping our roads, bridges, 
and transit systems functioning so that we can move goods and 
people safely and efficiently. Unfortunately, investment in our 
country's infrastructure has not kept pace with growing needs 
at the State and metropolitan level. nationwide there are 
63,500 bridges that are structurally deficient and 50 percent 
of our nation's roads are in less than good condition.
    The Federal Government provides over 50 percent of the 
capital expenditures for State highway projects nationwide, 
which means that states and local governments rely heavily on 
Federal funding to maintain and improve their transportation 
systems.
    A robust, multi-year surface transportation bill will 
sustain millions of jobs for American workers and help the 
construction industry, which was hit hard by the Great 
Recession. There are still approximately 1.4 million fewer 
construction workers today compared to 2006.
    It is critical for our nation to continue investing in our 
aging infrastructure. The Highway Trust Fund is an integral 
part of how the Federal Government provides predictable, multi-
year funding to states so they can plan and construct long-term 
highway, bridge, and transit projects. Therefore, preserving 
the Highway Trust Fund needs to be our No. 1 priority.
    We must move quickly to pass a bipartisan transportation 
bill, because without action we are facing a transportation 
funding shutdown in just a few short months. The law that 
currently authorizes our surface transportation programs is set 
to expire on May 31st--right as the critical summer 
construction season is beginning--and the Highway Trust Fund is 
projected to face cash-flow problems shortly thereafter.
    Secretary Foxx recently stated that U.S. DOT would likely 
begin warning states in June of ``cash management'' procedures 
which would take effect in July, when fund balances fall below 
a prudent balance. Make no mistake--this would result in the 
rationing of billions of dollars in payments to states.
    I'd like to enter into the record a recent statement from 
Pete Ruane, the President and CEO of the American Road and 
Transportation Builders Association, and read a portion of the 
statement:
    ``In just 100 days, authorization for the Federal highway 
and transit program will end, absent action by the Congress. 
Close observers know, however, that the Senate and House are 
only scheduled to be in session 55 and 36 days, respectively, 
before that legislative deadline occurs. Where is the sense of 
urgency? The uncertainty caused by congressional action is 
already--again--having real world, negative economic 
consequences as states begin cutting back work plans because 
they don't know if the funding will be there to pay the bills 
several months from now.''
    Transportation should be a nonpartisan issue. Taking action 
to save the Highway Trust Fund and invest in our aging 
infrastructure is strongly supported by businesses, labor, and 
transportation organizations.
    Last May, the EPW Committee unanimously approved a 6-year 
reauthorization of MAP-21 that provided long-term funding 
certainty for highway and bridge programs. I am hopeful we will 
have similar success in our Committee this year, but the clock 
is ticking. Failure is not an option, there are no excuses for 
further delay or extensions, and I look forward to working with 
all of you to get the job done.

    Senator Inhofe. And I will do the same.
    I would only say this. What you are witnessing here is 
unusual in Washington, because you have a proud, outspoken 
liberal and a proud, outspoken conservative in total agreement 
on what we should be doing. We do have that old outdated 
document out there called the Constitution that kind of tells 
us what we are supposed to be doing here. This is what we are 
supposed to be doing here.
    With that, let's start with Mr. Braceras. Mr. Braceras, we 
will start with you and we will kind of go across for your 
opening statements. Then we will open up for questions.

  STATEMENT OF HON. CARLOS BRACERAS, EXECUTIVE DIRECTOR, UTAH 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Braceras. Thank you, Chairman Inhofe, Ranking Member 
Boxer and members of the committee.
    Thank you for the opportunity to provide input on the need 
to reauthorize MAP-21. My name is Carlos Braceras, and I serve 
as the Executive Director of the Utah Department of 
Transportation. Today it is my honor to testify on behalf of 
the State of Utah and AASHTO.
    Throughout the history of our Country, transportation has 
played an integral role in the success of our economy. While 
States have done an admirable job of addressing transportation 
within their boundaries, there is clearly a need for a cohesive 
national transportation system. Our Federal highway program is 
a federally funded Stated-administered program based on the 
100-year old partnership between the Federal Government and 
State DOTs. Nearly half of all the capital funding for highway 
and bridge projects comes from the Federal Government. 
Eliminating the Federal participation in this partnership will 
leave too big a hole for the States to be able to make up on 
their own.
    State DOTs have a strong partnership with their local 
governments and their respective States. The transportation 
planning process requires State DOTs to work extensively with 
local planning agencies and the public in developing multi-
modal transportation plans and identifying projects that are 
supported by the Highway Trust Fund. This process works well, 
and is the foundation of the performance-based programs 
established under MAP-21.
    Rather than drastically altering the federally funded, 
State-administered nature of the Federal Highway Program, and 
facing consequences of such disruption, we should highlight 
examples were State DOTs have strong, productive partnerships 
with local governments, and where the transportation planning 
process is working well.
    In Utah, as with all of our sister States, the success of 
our communities, both large and small, is critical. As such, we 
have developed what we refer to as the unified plan, in which 
all our metropolitan planning organizations, cities, counties 
and transit authorities, have come together to develop a 
unified plan of projects that will address the goals of the 
State and individual communities for the next 30 years. In 
Utah, we speak with one voice toward an agreed-upon set of 
goals.
    As Congress considers policy changes in the next 
reauthorization bill, it should build on the successful reforms 
of MAP-21. We all share the goal of utilizing the resources 
invested in our transportation system as effectively and 
efficiently as possible. We can accomplish this by streamlining 
the project delivery process, such as clarifying that States 
participating in the NEPA delegation may make project-level 
conformity determinations, give the States the ability to 
approve designs and right-of-way acquisitions, allow State DOT 
modal administrators to use categorical exclusions determined 
by other modal administrators.
    Furthermore, Congress should consider authorizing a 
consolidated funding pilot program. This would build on the 
program consolidation efforts made in MAP-21 by treating all 
core funding programs as a single, consolidated apportionment. 
States would only be eligible to participate in the program 
once they have established performance management systems that 
ensure accountability and transparency.
    Utah is ready to step forward and pilot such a program. I 
am convinced that we will be able to demonstrate that we will 
be able to better meet both the transportation goals of this 
Country and those of Utah.
    I encourage Congress to seek additional opportunities to 
continue moving the Federal highway and safety programs toward 
performance and outcome-based programs that emphasize results 
as opposed to process.
    In conclusion, AASHTO remains committed to helping Congress 
pass a robust, long-term surface transportation authorizing 
bill as soon as possible. The current extension expires in the 
middle of the spring construction season. Already, several 
State DOTs are postponing needed projects that are scheduled to 
go out to bid.
    The sooner Congress acts, there is a greater likelihood 
that these projects will be built this year as opposed to being 
pushed back another year. This week, hundreds of State DOT 
leaders from nearly every State in the Country are just a 
couple of blocks away, attending AASHTO's 2015 Washington 
Briefing. Over the next couple of days, most of them will be up 
here on the Hill, meeting with their congressional delegations, 
advocating for a long-term surface transportation bill that 
addresses our surface transportation investment needs.
    I would like to thank you once again for the opportunity to 
testify today. I will be more than happy to answer any 
questions the committee has.
    [The prepared statement of Mr. Braceras follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Inhofe. Thank you very much, Mr. Braceras. I should 
have mentioned, Mr. Braceras is the Executive Director of the 
Utah Department of Transportation.
    Next, the guy who gets the prize for coming the farthest, 
Steve Heminger, from the California Transportation Commission.

 STATEMENT OF STEVE HEMINGER, EXECUTIVE DIRECTOR, METROPOLITAN 
                   TRANSPORTATION COMMISSION

    Mr. Heminger. Thank you, Chairman Inhofe, Senator Boxer and 
members of the committee. Good morning.
    Just for the record, again, my name is Steve Heminger and I 
am Executive Director of the Metropolitan Transportation 
Commission, which is the metropolitan planning organization, or 
MPO, for the San Francisco Bay Area. A few years ago, I also 
was privileged to serve on one of the two congressionally 
chartered commissions, the National Surface Transportation 
Policy and Revenue Study Commission. I very much appreciate 
this opportunity to testify today on the still-relevant title 
subject of that commission's report: Transportation for 
Tomorrow.
    United States Senators have a lot on their plates. So let 
me make three brief points. First, I want to thank this 
committee for the considerable progress you have made in 
reforming the Nation's surface transportation program. The 
emphases in MAP-21 on program consolidation, performance-based 
outcomes, freight policy and permit streamlining are all 
welcome developments. Your bipartisan leadership is helping 
States and MPOs make better investment decisions and deliver 
those projects faster to our constituents.
    Second, despite these advances, Federal policy, in my 
opinion, still lacks sufficient focus on the investment needs 
of the Nation's economic engines: the metropolitan areas that 
more and more Americans call home. The fact is, the U.S. 
economy will rise or fall based on how well our metro economies 
compete in the global marketplace.
    For example, Bay Area residents contribute almost 60 
percent more to our gross domestic product than the average 
American, 60 percent more. In regions as diverse as Houston and 
Boston, this metro dividend is nearly 40 percent above the 
national average.
    Now, the Federal-State relationship is the cornerstone of 
American federalism, and the transportation arena is no 
exception to that. But that should not preclude a new 
performance partnership with dedicated funding between the U.S. 
DOT and the Nation's MPOs. We need to keep those economic 
engines primed.
    Finally, if we want better conditions and performance from 
our roads, bridges and public transit systems, we are going to 
have to figure out a way to pay for it. So how deep is the hole 
we have dug? Let me start with that, and just give you one 
snapshot of the San Francisco Bay Area. Our long-range plan 
devotes nearly 90 percent of all the money we have available, 
90 percent over the next 25 years, just to operate and maintain 
the existing transportation network.
    The Federal program is 13 percent of our total funding. One 
way of looking at that is, you are getting eight to one 
leverage off of your investment in California, which is a very 
good return. It also means that we are not here asking you for 
a handout. We are asking you for a little help, because we are 
doing most of it.
    But when you spend nearly 90 percent of your budget on 
maintenance, over the next 25 years, in the face of the growth 
we are seeing, we are leaving a lot of expansion projects on 
the table, because we simply can't afford to pay for them. Even 
after spending 90 percent of all of our money on maintenance, 
we still have $10 billion plus shortfalls for State highway 
repair, for local road repair and for the public transit system 
State of good repair.
    That is the situation we are in. That is how deep the hole 
is. And that is why I say, and I think it is no surprise to 
this committee, that level funding just won't cut it.
    Now, the members of this committee probably have forgotten 
more about politics than I will ever know. But I do know this. 
Since the Federal gas tax was last adjusted in 1993, 42 States, 
42 States, have raised their rates, some by a little, others by 
a lot; some by indexing, others by voting. These States range 
from the brightest red to the deepest blue. Somehow, all those 
Governors and State legislators figured out a way to pay for 
needed transportation improvements.
    Moreover, the math is pretty compelling. As an example, 
doubling the current Federal user fees on gasoline and diesel 
fuel would generate over $30 billion per year and create more 
than 300,000 jobs, yet it would cost the average motorist less 
than 30 cents per day.
    Now, a recent American president confronted a similar 
predicament to the one we are in today. I would like to read a 
quotation from him about how he fought his way through it. 
``Common sense tells us it will cost a lot less to keep the 
system we have in good repair than to let it crumble and then 
have it start all over again. Good tax policy decrees that 
wherever possible, a fee for a service should be assessed 
against those who directly benefit from that service. Our 
highways were built largely with such a user fee, the gasoline 
tax. I think it makes sense to follow that principle in 
restoring them to the condition we all want them to be in.''
    That was President Ronald Reagan in 1982. I think the words 
are still true today.
    So let me end where I began. Your reform agenda is working. 
But there is no free lunch when it comes to infrastructure. 
Indeed, the only question is whether we want to pay now to 
improve our roads and rail lines, or whether we want to pay 
later in crumbling facilities that will curtail our economic 
potential.
    I remain optimistic that this Congress will make the right 
choice. And in light of the quotation I have just read, perhaps 
I should conclude by saying, let's just win one more for the 
Gipper.
    Thank you very much.
    [The prepared statement of Mr. Heminger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
    Senator Inhofe. That has a great impact on me, anyway. 
Thank you very much.
    Mr. Riordan is the President and CEO of Neenah Enterprises. 
We recognize you to tell us about Neenah Enterprises, we will 
give you a few seconds to go over.

   STATEMENT OF THOMAS J. RIORDAN, PRESIDENT AND CEO, NEENAH 
                       ENTERPRISES, INC.

    Mr. Riordan. Thank you, Mr. Chairman. Chairman Inhofe, 
Ranking Member Boxer, and members of the Senate Committee, on 
behalf of my company, Neenah Enterprises, and the National 
Association of Manufacturers, that I also represent, thank you 
for the opportunity to testify about the importance of Federal 
investments in our transportation infrastructure.
    With its headquarters and largest foundry in Neenah, 
Wisconsin, Neenah Enterprises consists of two business 
operating entities. Our best-known business is Neenah Foundry, 
which is one of the top suppliers of municipal castings 
including manhole frames, lids, covers, grates, trench castings 
and decorative tree grates. Since 1872, Neenah Foundry has been 
a consistent leader in producing durable castings that are used 
in every State across our Country, and we proudly make all of 
our products here in the U.S.
    Our other business, Neenah's industrial division, 
represents about 70 percent of our revenue and is a key 
component provider to many of the world's leading manufacturing 
companies, designing and building cast iron and forged parts 
for the heavy truck, agriculture, construction, HVAC, energy 
and other industries. We are one of the largest independent 
manufacturers of castings in the U.S. and part of the largest 
recycling industry in the Nation, turning scrap steel into 
useful products in an environmentally friend manner.
    As Chair of the NAM's Small and Medium Manufacturers Group, 
I often hear about the business challenges that my peers face, 
from escalating costs of healthcare to the increasing burdens 
of regulation. The health and condition of our Nation's 
infrastructure on the transportation network is also of 
significant concern to manufacturers. Our transportation 
infrastructure underpins the movement of goods within our 
economy. It is vital for our day-to-day business and our long-
term economic prosperity.
    Neenah is hugely dependent upon the transportation 
infrastructure, ports, rail and highways. As an example, our 
largest facility has over 15,000 truck visits each year. The 
logistics planning that goes into each of these visits is very 
involved, and delays based on traffic congestion often drive 
significant expense overruns on a daily basis. The cost of 
scheduling, rescheduling, paying overtime, customer and vendor 
disruptions, production delays and lost business all add cost 
and challenge our competitiveness by raising our total cost of 
doing business by about 1 percent each year.
    These excess costs are diverted away from other business 
activities such as product development, new capital projects 
and investments in our work force. Congestion is really a 
hidden tax and an increasing drag on American competitiveness. 
As congestion continues to challenge the Nation's highway 
network, especially in metropolitan regions, capital spending 
on highways, roads and bridges fell 3.5 percent between 2003 
and 2012, according to a recent NAM study. The study, entitled 
Catching Up, also revealed that spending on public 
infrastructure dropped 10.5 percent between 2003 and 2012 in 
the same time period.
    A more sustained and focused effort is going to be needed 
in the long term to help reverse these troubling trends. We can 
and should do better than allow our Nation's infrastructure 
base to continue to erode.
    In the short term, manufacturers are counting on Congress 
to help facilitate commerce by moving a well-funded, multi-year 
surface transportation authorization that secures the financial 
health of the Highway Trust Fund. Manufacturers support this 
committee's efforts to ensure our transportation system is on 
more solid and robust footing.
    I very much appreciate and thank you for the opportunity to 
testify this morning.
    [The prepared statement of Mr. Riordan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
           
    Senator Inhofe. Thank you very much.
    Mr. Gardner is the Vice President of Supply Chain and 
Customer Experience for Ingredion Incorporated. Why don't you 
tell us about it?

 STATEMENT OF DAVID GARDNER, VICE PRESIDENT, SUPPLY CHAIN AND 
          CUSTOMER EXPERIENCE, INGREDION INCORPORATED

    Mr. Gardner. Good morning, Chairman Inhofe, Ranking Member 
Boxer, and distinguished members of the committee. Thank you 
for the opportunity to testify today.
    My name is Dave Gardner and I am Vice President of Supply 
Chain and Customer Experience for Ingredion Incorporated. In my 
role I am responsible for operations, including raw material 
sourcing, logistics, and customer service. I am testifying here 
today on behalf of the U.S. Chamber of Commerce.
    First, let me first tell you a little bit about Ingredion. 
We produce hundreds of value-added ingredients from plant 
sources, including corn, tapioca and rice. We manufacture our 
products for the food industry, beverage, pharmaceutical, 
corrugating, paper, and animal feed industries. Our ingredients 
add crunch to crackers and fiber to cereal bars. They can make 
a soft drink sweet with calories or sugar free, plastics 
biodegradable, body lotions silkier, and tissues stronger and 
softer.
    In fact, our products appear in roughly 80 percent of all 
the products that you would find on a grocery store shelf, 
either in the product, in the package or in the packing itself. 
We are a multinational, FORTUNE 500 company headquartered in 
the Chicago suburb of Westchester, IL. We have a global R&D 
facility in Bridgewater, New Jersey. We employ roughly 11,000 
people globally and have 2,000 employees in the United States.
    Our supply chain is a worldwide network of 35 manufacturing 
plants and 24 R&D centers around the globe. In North America we 
operate 13 manufacturing plants, with seven of those in the 
United States. Our largest plant is in the Chicago area.
    Our primary raw material is corn, which we ship to our 
plants from the Farm Belt via rail and truck. Our finished 
products are distributed to customers across the Country by a 
network of rail, truck, warehouses, and break stations. 
Needless to say, a smooth-functioning surface transportation 
system is not only essential to Ingredion's business, it 
impacts the bottom line of our business and of our customers.
    Logistics costs represent a significant portion of our 
inbound corn costs and delivered finished product costs. In 
2014 alone, our transportation costs, excluding the cost of 
fuel increased by 3.6 percent, far outstripping the rate of 
inflation.
    An outdated transportation system leads to increased 
freight costs, variability in delivery times, higher 
inventories, poor customer service, and an overall 
uncompetitive situation for us and for all other industries. 
Let me just touch on few examples to illustrate how a neglected 
infrastructure impacts us.
    Last year, it took longer to transport corn from the 
farmers and storage elevators to our facilities. This resulted 
in millions of dollars in increased freight costs, higher 
manufacturing costs due to plant downtime, and curtailed 
production.
    The transportation industry is struggling. In 2014, the 
average train speed decreased by over 6 percent and delay times 
increased by 10 percent. As a result, we had to increase 
product inventories and address a shortage of rail cars to 
transport our products, leaving us to struggle to meet customer 
demand.
    As the network moves slower, we are forced to increase our 
rail fleet and to make suboptimal sourcing decisions. Chicago 
is a primary transportation hub and the location of our largest 
plant. The increased rail volume through Chicago is causing 
unprecedented delays. For example, it can take up to 3 days to 
just get a rail car of product out of the Chicago area. A 
customer is a mere 7-hour drive away, it can take up to 5 days 
to deliver them product by rail.
    Because we cannot consistently rely on rail to deliver 
products to our customers on time, we are often required to 
revert to trucks, at a more costly position than rail. However, 
the trucking industry is also severely challenged. Available 
truck capacity compared to truck demand is at an historic 
imbalance. This has been amplified by tightening regulation on 
driver hours and deteriorating highway infrastructure.
    Our ability to respond to our customer needs is directly 
impacted by the availability of trucking capacity. As truck 
capacity tightens, our on-time delivery rate suffers. 
Ingredion's incidence of late deliveries over the last 2 years 
has almost doubled since 2012.
    But our story is really just a small pixel of the bigger 
picture. Increased transportation costs are impacting the 
broader American business community. According to the Council 
of Supply Chain Management Professionals, U.S. business 
logistics costs was $1.4 trillion in 2013, and this equates to 
8 percent of the GDP
    Today marks the first time that Ingredion has testified 
before Members of Congress, but we can no longer afford to 
remain silent. We came here today to add our voice to the 
growing concern by businesses calling for improvements to the 
Nation's infrastructure systems.
    I would like to thank the committee for their continued 
work and attention on the reauthorization of our surface 
transportation programs. MAP-21 ended years of short-term 
extensions that created a great deal of uncertainty for 
businesses such as ours. We are eager to see a long-term 
solution come out of Congress this year, and we know that you 
agree.
    Thank you very much for the opportunity to be here today, 
and I look forward to answering your questions.
    [The prepared statement of Mr. Gardner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
    Senator Inhofe. Yes, we do agree.
    Mr. Rowen is the President of Susquehanna Glass Company. 
You are recognized.

 STATEMENT OF WALT ROWEN, PRESIDENT, SUSQUEHANNA GLASS COMPANY

    Mr. Rowen. Good morning, Chairman Inhofe, Ranking Member 
Boxer and other members of the Committee. My name is Walt 
Rowen. I am the owner of Susquehanna Glass Company. We are a 
small, 100-year old glass decorating company based in Columbia, 
Pennsylvania.
    Our products don't make body lotions creamier, but I can 
guarantee you, California wine tastes wonderful in our wine 
glasses.
    [Laughter.]
    Mr. Rowen. Thank you for allowing me to testify before you 
today and share my comments about the importance to us of 
reauthorizing the funding for the Highway Trust Fund.
    My company provides decorated glasses and barware to major 
retailers, internet flash sites, small retailers and other 
tabletop companies around the Country. We rely on the freight 
and trucking industry to ship our finished products all over 
the Country to retailers and directly to their customers. Last 
year, my business shipped over 57,000 small packages via UPS 
and FedEx and we generated more than a million dollars in 
freight charges. So clearly, our success as a company relies 
very heavily on our ability to deliver products efficiently and 
cost-effectively to our customers.
    One of our business models has been to gradually shift from 
shipping large shipments to retailers and their DCs, or their 
distribution centers, shifting to more of a direct-to-customer 
package delivery system, relying more on UPS and FedEx. So 
today, we really balance both of those areas, both trucking 
shipments and small UPS packaging.
    Investment in our Nation's infrastructure is an investment 
in America, pure and simple. Not only would this benefit 
businesses like mine that rely on the shipping industry and 
well-maintained roads, it would create new opportunities for 
small businesses. About 147,000 of our Country's 650,000 
bridges are failing. This is especially apparent in 
Pennsylvania, where I live. We have the third-largest number of 
bridges in the U.S., over 25,000, but we lead the Nation in the 
number of bridges classified as structurally deficient. And a 
mere 30 percent of Pennsylvania's roads have been labeled in 
good condition, only 30 percent in good condition.
    What is more, one-third of America's major roads are in 
poor or mediocre condition. There are 4,000 dams in need of 
repair and 36 percent of our urban highways are congested. 
Rebuilding America's roads, bridges and schools offers 
tremendous opportunities to small businesses. Not only do they 
participate in the building projects and their supply chain, 
they run the hotels, coffee shops, restaurants and other 
businesses that serve people working on those projects. The 
economic impact to the American economy is unfathomable when 
you devote these funds to these kinds of construction projects.
    In fact, Small Business Majority's polling found 69 percent 
of small business owners favor investing $50 billion in 
infrastructure projects that would create jobs. If the cost of 
freight continues to rise while our roads deteriorate, it will 
become harder and harder to move my products and make a profit. 
This would seriously be detrimental to my bottom line. UPS and 
FedEx have just started to price small packages differently. 
Instead of just paying for weight, we are paying for the size 
of the package. That is going to increase my cost of shipping 
dramatically.
    Investing in our Nation's roads, bridges and other physical 
infrastructure supports access to customers and vendors, while 
at the same time creating demand for the goods and services 
small businesses have to sell. We need infrastructure 
investments that will be beneficial for business and the 
economy. I hope you will strongly consider small business 
support for reauthorizing funding for the Highway Trust Fund.
    Thank you sincerely for the opportunity to comment on this 
important issue.
    [The prepared statement of Mr. Rowen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
            
    Senator Inhofe. Thank you, Mr. Rowen, and thank all of you 
for your opening statements.
    What we are going to do is have 5-minute rounds, and have 
two rounds. This is to accommodate members who are going to 
have to come late and maybe leave early. So there will be 
plenty of time.
    I will go ahead and begin with the most unpopular of the 
subjects and that is, I have been very frustrated over how we 
pay for a multi-year reauthorization. Some of my colleagues 
have talked about supporting a concept of shifting the Federal 
program back to the States by cutting the Federal user fees, 
some of them 15 cents, some of them, whatever the amounts. And 
then letting the States pick up the tab.
    Now, if such a thing were to become a reality, Idaho would 
have to raise its State gas tax by 25 cents, West Virginia by 
32 cents. Your State, Mr. Braceras, of Utah, would be 19 cents 
that you would have to increase this. And in Montana, 44 cents. 
So there was a reason for this. I often say one of the few 
things that really does work in government is this system. And 
this is coming from a conservative.
    So I have often said, and I remember on the Senate floor 
when we had our 27-month bill that the conservative position is 
to go ahead and do an authorization bill. No. 1, you get all 
the reforms, streamlining and all that stuff, and No. 2, if you 
don't do that, it is going to cost about 30 percent off the 
top. And that is not the conservative position.
    Now, when you talk about devolution, as several are 
suggesting, I am probably the right one to talk about this. 
Because, and my colleagues don't know this, but 25 years ago, 
Connie Mack from Florida and Jim Inhofe from Oklahoma were the 
fathers of devolution. We thought then that oh, that was so 
much fun on the stump to talk about how, go back to Oklahoma, 
why make an unnecessary trip of our dollars in Oklahoma to 
Washington and back, until we realized how it didn't work. 
Obviously, it was more fun to be for it than against it. But 
nonetheless, that is happening.
    [Laughter.]
    Senator Inhofe. But anyway, interState commerce doesn't 
stop at State boundaries. No State is an island. I have read 
extensively on Eisenhower, I have always been a great admirer 
of his. My other committee is Armed Services Committee. He used 
to say, it is just as much about national defense as it is 
interState commerce. InterState connectivity and national 
defense access are equally important.
    So I would just say, that my position, and what I am going 
to do is have only one question. One question. We will start 
with you, Mr. Braceras, and we are going to work down. Now, in 
5 minutes, we will cut me off and go to the rest of them, then 
we will continue. So that will give you more time to think 
about this. All right, Mr. Braceras, do you agree with me? What 
do you think?
    Mr. Braceras. Mr. Chairman, I would say the answer of 
whether or not to devolve the Federal program is if you believe 
there is no Federal purpose in transportation. I believe that 
there is a strong purpose in our Nation's transportation in 
having a strong Federal role. Companies such as, based in 
Oklahoma, Advance Pierre Food Services, they produce their 
products but they depend on a vibrant, well-functioning, safe 
transportation system in every State of this Country. For our 
Country to continue to be successful and be an economic leader, 
we need a strong Federal transportation system.
    Senator Inhofe. That is good. One followup question on 
that. What if a State, if you went through this concept and a 
State decided that they were not going to increase their taxes? 
Your State of Utah, for example, what would happen to the 
national system?
    Mr. Braceras. We depend on the Federal program to maintain 
and operate our transportation system. We have a strong State 
system. Our Federal program constitutes just under 25 percent 
of our program. But the Federal program is what we maintain and 
preserve the State's transportation system on. So you would see 
roads continue to deteriorate, bridges to continue to 
deteriorate. So that Federal role is critical to the State of 
Utah.
    Senator Inhofe. Thank you, Mr. Braceras. Mr. Heminger.
    Mr. Heminger. Mr. Chairman, I certainly do agree with you. 
And there is another quotation I am recalling from President 
Eisenhower when he submitted his interState highway bill to the 
Congress. He noted that activities like transportation and 
communication are things that knit our Country together. I 
think he said without that, we would be a mere alliance of many 
separate parts.
    I think we are called the United States of America for a 
reason. If you think the Federal Government is done with 
transportation, I suppose you could devolve the program. I come 
from a State that has probably the best chance of standing on 
its own two feet. We are a nation State by any stretch of 
measure. But there are jobs that even we can't do. And Senator 
Boxer mentioned the import of goods and the flow of commerce 
coming into our ports. That is not just a California issue, 
that is a national issue.
    I would finally mention one thing that doesn't often get 
talked about in devolution. If you were to head down that path, 
the last time I checked, I think it is something like 30 or 
more States have restrictions in their State constitutions that 
would prohibit them from using gas tax money on public transit. 
And that is a pretty big pill to swallow in States around the 
Country where we rely on Federal aid to public transit.
    Senator Inhofe. Thank you very much. I am going to cut my 
time off now and we will come back for the three of you on the 
same issue.
    Senator Boxer.
    Senator Boxer. Mr. Chairman, thank you very much. You are a 
leader on national defense. And you are a leader on the Highway 
Trust Fund. The last person that brought that together was Ike, 
Eisenhower. He was President in the 1950's when you and I were 
just really little kids.
    Senator Inhofe. You were littler than I was.
    Senator Boxer. Not by that much, unfortunately. But here's 
the deal. It was Ike who started the interState highway system. 
And he did it because of national defense. Because he said, as 
you said, this is one Nation under God. He may have said under 
God. And the bottom line is, we have to move these goods. This 
is essential for our national defense, for our national 
security. And of course, for our economic security.
    So we are on the high ground here. I couldn't agree with 
you more that this is one place where Republicans and Democrats 
should come together. And we have proven we can do it in this 
particular committee.
    Now, this panel is just terrific. And I guess I have a 
political question to ask Mr. Braceras. Have you spoken this 
passionately to your Senator Hatch? Does he know your feelings 
about the impact of this?
    Mr. Braceras. I believe you might mean Senator Lee. Yes, 
Senator Hatch believes in a strong Federal role.
    Senator Boxer. No, I mean Senator Hatch. I am talking about 
Senator Hatch for a reason. Senator Hatch is the one with 
Senator Wyden is going to figure out how to fund the trust 
fund. And so far, we have seen nothing come out of that 
committee, either when Senator Wyden was in charge, frankly, or 
when Senator Hatch was in charge. Lots of ideas.
    And if I could just say, for myself, I am open to all of 
them. And the reason is, I am open to all of them, because I 
think this is so critical to our economy. If you just look at 
construction workers, and I want to say to my private sector 
people here, thank you for being here. We, at the height of the 
Great Recession, we had more than 2 million workers, is that 
right, Bettina? Two million construction workers out of work. 
Today, we have 600,000 construction workers out of work. It is 
such a long, difficult task to get everything back to where it 
was before the Great Recession.
    If we fail to act, and Senator Hatch and Senator Wyden 
together don't figure out a funding mechanism, I mean, I have 
been talking to other colleagues on the other side of the 
aisle, Mr. Chairman, and we are thinking about teaming up and 
offering some things like repatriation and other things, on the 
floor itself, just to get moving. Because we are headed into 
very, very dark waters here.
    So I would just like to ask each of you the consequences, 
and put it as tightly as you can in my remaining time, the 
consequences of our not acting, and maybe at the last minute, 
throwing together a 6-month or a 5-month extension. What are 
the consequences on the ground? I think we are going to start 
with you, Mr. Braceras.
    Mr. Braceras. Thank you, Senator. The consequences would be 
significant. If you believe that the projects that we work on 
are important to safety, for preservation, to save this 
Nation's money, we could lose a construction season if we wait 
too long. For us, when we get the go-ahead from Congress, we 
are ready to go on those projects that still need to be 
appropriated. It takes a month to advertise, it takes a month 
for WRDA contracting. In cold weather States, we could 
potentially lose an entire construction season.
    Senator Boxer. And that means lost jobs and businesses 
really hurting.
    Mr. Braceras. And projects costing more money next year 
than they do today.
    Senator Boxer. OK. Mr. Heminger, do you agree with that?
    Mr. Heminger. Yes, I do, and I want to emphasize that last 
point. In life, time is money. But especially in construction. 
And when you are ready, you are ready. Then you have to let it 
go and some other job gets in the way. And then you're three or 
four down the pecking order.
    California has better weather, we have more local money. So 
in a sense we are a little bit better able to deal with this 
uncertainty. But it is frustrating for all of us, as I know it 
is frustrating for you, not to have the predictable funding 
that you need for long-term infrastructure investment.
    Senator Boxer. Mr. Riordan.
    Mr. Riordan. Senator, we absolutely agree. On behalf of 
National Association of Manufacturers and my company as well, I 
have been personally involved in a construction equipment 
company in the past. I have seen first-hand the delays, cost 
overruns, confusion that go with the start and stop nature of 
this process. I would urge the committee to consider the 
fiduciary responsibility from the standpoint of making sure we 
spend money in an intelligent, well thought-out basis.
    As manufacturers would say, planning is best done in 
advance. It is extremely difficult and extremely disruptive to 
have a start and stop nature, not only for private 
manufacturers who depend on this lifeline all the time, but 
frankly, for everybody else involved in the process.
    Senator Boxer. Would you write us a letter? I think NAM is 
very influential.
    Mr. Riordan. We would certainly be happy to do that.
    Senator Boxer. OK. Mr. Gardner? And I won't ask Mr. Rowen 
that question, because he sits here as a consumer of the roads. 
I understand. But I am talking about what happens on the ground 
if we have another one of these extensions.
    Mr. Gardner. My comments really support Mr. Riordan, where 
I think a long-term commitment allows us to do better planning, 
better execution of capital investments. But more specifically 
for our business, we are on a 3-year to 5-year planning 
horizon. We are making decisions today on where we locate our 
plants and how we move our products based on what we see today. 
With the uncertainty in what the investment strategy is going 
to be, we may be making decisions that really aren't in our 
long-term best interests or the best interests of our 
customers.
    Senator Boxer. Thank you.
    Senator Inhofe. Thank you, Senator Boxer. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. And thank all of 
you for being here. Your testimony is really very helpful as we 
go forward.
    The good news is that there is tremendous congressional 
support in getting this done, on both sides of the aisle.
    In Arkansas, and I will just kind of throw this open for 
whoever wants to jump in. In Arkansas we have seen some 
accelerated project delivery as a result of the common sense 
reforms in MAP-21. The reforms improved the Department of 
Transportation process.
    However, I have also heard in Arkansas and other areas from 
folks who believe that the reforms have done little to expedite 
work required by other agencies, such as the EPA, Fish and 
Wildlife and the Corps of Engineers. Can you comment about 
this? I think this is so important. I agree, we have to figure 
out a funding process and make this thing work. This is one of 
the things, though, that if you look back, we haven't increased 
the gas tax in decades. Yet we have increased the regulation 
tremendously.
    If you look and see the project that was done in Oklahoma, 
when you had your bridge collapse, the project in Minnesota 
where the bridge collapsed and was literally rebuilt in a year, 
not shot-cutting the things that we needed to have in place, 
but the agencies working together in a timely fashion without 
the gotcha attitude.
    Can you comment about that? And also, now or at some other 
point, what we would like, I think, on the committee, very, 
very much, you all are on the ground. It needs to come from the 
ground up. Give us some ideas, some real life situations that 
we can help cut through. Mr. Braceras, we can start with you.
    Mr. Braceras. Thank you, Mr. Boozman. First of all, I would 
like to really applaud Congress for the reforms in MAP-21. It 
allowed for good decisionmaking to be made in a very 
responsible way, a transparent way. Really it is about 
delivering your product to the market as quickly as possible. 
Those products that we deliver, those transportation projects, 
they save lives and they save the taxpayers' money by 
delivering them quicker.
    I would say that the reforms have helped the Federal 
Highway Administration and USDOT accelerate those projects. But 
their sister agencies in the resource areas, they are in a very 
difficult position. They have a mission to uphold the 
regulations that Congress has passed. I would say that they 
don't necessarily always share the same understanding in the 
need to move those projects forward as quickly as possible.
    So any attempts or efforts that Congress could make to help 
clarify your intent with some of those resource agencies would 
help them make their decisions quicker. It certainly doesn't 
steamroll the process, but we can certainly streamline the 
process.
    Senator Boozman. Thank you. Mr. Heminger.
    Mr. Heminger. Senator, I would first of all urge your 
committee to study the example you cited, which is the 
Minneapolis bridge collapse. My recollection, it was put back 
into service in 13 months. Probably if they had done that 
regular order, it would have taken 13 years. A lot of it has to 
do with concurrency. I know Secretary Foxx was before you not 
to long ago, and he was using that phrase over and over again. 
The more we can do things in parallel and not sequence, where 
we are waiting for one whole activity to stop before we start 
the next one.
    Second, our State of California has accepted delegation of 
the National Environmental Policy Act. We have a strong statute 
called CEQA, so I think we are in a good position to do that. 
But I think other States could consider that as well.
    Third, I do think you are right to identify the permitting 
process. In my experience, it is not so much the environmental 
review process, it is trying to get all of this alphabet soup 
of both State and Federal permitting agencies on the same page. 
In California, we have started to pay for staff at some of 
these agencies. When you all fund a bill for highways, you 
think you have the highways funded. But if we don't fund EPA 
and Fish and Wildlife, those guys can stop a highway project 
just as much as your not funding it can stop a highway project.
    So I think focusing on those permitting agencies and trying 
to get them staffed up, putting clocks on reviews and things 
like that, that in my opinion is where you can really gain some 
time.
    Senator Boozman. Very good. Thank you, Mr. Chairman.
    Senator Inhofe. Did you want the other three to respond? 
That is an excellent line of questioning. I could just deduct 
that from your second 5 minutes.
    Senator Boozman. If you don't mind.
    Senator Inhofe. Yes.
    Mr. Riordan. Senator, we agree as well, the National 
Manufacturers Association. Part of the challenge, I think, any 
project has is certainty around timing and cost. The more there 
is regulatory uncertainty that will not only disparage and kind 
of slow down development, but frankly, will also increase the 
cost and time that is required.
    One of the key concerns that my company has is recognizing 
we need to be responsive and respectful of the environment. On 
the other hand, as Mr. Heminger has just said, I think the time 
clock and the requirements for quick, prompt, certain review is 
just absolutely critical in the life blood of our Country in 
terms of commerce here. Frankly, one of our concerns is that if 
this does not happen, and it frankly turns into one of the most 
public, challenging works project there is in terms of the 
Keystone Pipeline and all the delays and all the drama that has 
gone with this, our Country will come to a halt in terms of any 
development from the standpoint of infrastructure and highways.
    Mr. Gardner. Senator Boozman, we have a company that is 
really built on continuous improvement. It has been core to our 
manufacturing operations, and over the last year we have really 
brought that into all of our business processes. What we have 
demonstrated to ourselves is that really, by leaning or 
simplifying our processes, we can really deliver the desired 
result without compromising the intent of the objectives of the 
program.
    So we are really supportive of anything that we can do to 
simplify the processes, allow the use of funds to be done more 
cost effectively. Certainly the permitting area would be the 
area that we need to focus on the most, because our company 
deals with permitting. From an environmental perspective, on a 
regular basis, we see some of the challenge and we can 
certainly recognize how that would impact all of the 
infrastructure investment as well.
    Mr. Rowen. Senator Boozman, I am not going to answer your 
question from a detailed standpoint, because I am not in the 
industry, construction or transportation industry. But I am an 
owner of a company and I make business decisions every day 
about investments.
    I will give you two examples. They seem a little crazy, but 
they are, I think, to the heart of the matter. I had to just 
make a decision about buying a new tow motor and a new furnace 
for my glass decorating business. I spent probably about 
$50,000 in those two investments. I realized that over the last 
2 years, I was spending a lot more repairing my tow motor than 
it would cost me to build a new one. The same was true of the 
dryer. I had some defective product because the dryer wasn't 
working. It cost my business money. And when I sat down and 
looked at the numbers, I realized that I was making a much 
smarter investment spending $50,000 today so that I could save 
a lot of money down the road.
    I think that is what government needs to do more of.
    Senator Boozman. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Boozman. Senator 
Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman, and 
thank you for your energetic leadership on this public works 
bill.
    Following up very directly on Mr. Rowen's point, we have 
information out of my home State of Rhode Island that Rhode 
Island motorists pay nearly $500 million every year in car 
repairs for whacking into potholes and dealing with the crummy 
road infrastructure that we have to live with. So if you want 
to talk about saving money to real people and putting real 
money in their pockets, it is $662 per year per motorist in 
Rhode Island, if you divide out 496 by the number of motorists.
    That is twice as much, more than twice as much, as the 
Highway Trust Fund spends in Rhode Island every year. So we 
have the situation in which, perhaps in theory, to protect 
taxpayers, we are letting our roads crumble and become really 
lousy. And the actual effect on the pocketbook of the average 
homemaker is that they lose money. They pay $662 fixing the car 
instead of a little bit more in the gas tanks and heading 
smoothly down a safe and proper road.
    So if any of you have observations that are similar to that 
from your trucking companies you work with or anybody else, I 
think it is important to help us build that story of how it 
doesn't save money to save money on infrastructure. All it does 
is move costs to the private sector and people have to write 
the check out of their own checkbook for the realignment of 
their front axle, because they whacked into a pothole that 
nobody took care of in time.
    So I would urge you, if you don't mind, if you have stories 
that could help us with that case, to submit them for the 
record.
    The second thing we have begun to see, particularly from 
our dear friends on the House side of the building, is a 
penchant for taking a piece of legislation that ought to pass, 
is ready to pass, has broad bipartisan support, and then adding 
to it something controversial that they couldn't pass through 
regular order but now, by virtue of attaching it to the piece 
of regular and by and large non-controversial legislation, they 
get to take a whack at it. Sort of the drug mule theory of 
legislation. You try to get your contraband through by putting 
it on something else that is traveling legitimately rather than 
trying to get it through regular order, which in most cases you 
probably couldn't get it through regular order, which is why 
they are using this strategy.
    So the reason I bring that up is that this is an important 
bill. It has a deadline in May. There is always the prospect 
that somebody is going to think, oh, this would be a really 
clever thing to attach something really controversial to really 
stick it to somebody.
    What would your advice me if we are faced with the prospect 
of having unrelated measures attached to the Highway Bill? Go 
ahead, Director Braceras.
    Mr. Braceras. Thank you, Senator. We would obviously 
encourage a clean Highway Bill to come through, recognizing the 
importance of the work that needs to be done by all 
transportation agencies in this Country.
    You mentioned earlier about those costs of repairing 
vehicles. Think about the loss of work time when they are 
taking care of and making those repairs. We have a saying in 
Utah: good roads cost less. If you invest and do the right 
treatment at the right time on a pavement, on a bridge, you can 
save over 20 times the cost of if you wait and let it 
deteriorate even further. So it is critical for the economic 
foundation of this Country that not only the transportation 
system function well from a congestion and a safety 
perspective, but that we preserve it in a proper condition. So 
we would encourage that the reauthorization of this bill be a 
long-term, clean Highway Bill.
    Senator Whitehouse. Thank you. I assume that is a unanimous 
sentiment from the panel?
    Mr. Heminger. I would also say, Senator, that we actually 
confronted that situation with MAP-21. I think the fact that 
Senator Boxer, who was then chairman, and Senator Inhofe were 
working so closely together, and you got that large bipartisan 
vote on the floor, I think that is the best defense you have 
against those kinds of riders trying to attach themselves to 
the bill. Because when folk see that kind of support, they know 
they are climbing up a pretty tall hill.
    Senator Whitehouse. I couldn't agree with you more. I think 
there is an issue or two where Senator Inhofe and Senator Boxer 
might disagree. But when they get together, as they do on these 
public works and highways bills, they are a formidable pair. 
They have done a very good job at defending against that kind 
of behavior.
    But I think it always helps to make a record that supports 
the fact that industry folks and folks who depend on this 
infrastructure would also like to see these bills go forward 
clean and through regular order.
    Thank you, Chairman.
    Senator Inhofe. Thank you, Senator Whitehouse. I would only 
comment that I don't think you are going to see that. I was 
with Congressman Shuster last night, and we talked about that 
very thing. He is going to make a real effort to make sure that 
doesn't happen.
    Thank you, and Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman. Thank you for your 
leadership. Thank you for your history.
    I am still kind of stuck on the thought that no State is an 
island. It seems like maybe we will get back to that one in a 
while, sir.
    In the meantime, thank you for being here. I come from 
South Dakota, which is as far away from the ocean as you are 
going to get. But as a very large State with a very low 
population, we still sit right in the middle of the Country and 
we have two interstates that run through the State, one north 
and south, I-29, and one east and west, I-90. Four hundred 
miles east and west and 200 miles north and south. We rely on 
the Federal Highway program to maintain our economic 
competitiveness and ensure the safe and reliable transportation 
system on which not only my constituents, but constituents 
across the United States rely on to get back and forth across 
the Country.
    Businesses rely on it. We are an ag State. We have to be 
able to get our products to market, just like your folks do in 
your States. We want that.
    Now, if we were to take advantage of, or take a serious 
look at devolution, our State would have to increase its share 
of the gas tax from 22 cents to 58 cents per gallon simply to 
stay on par. I would like to hear from you what your thoughts 
are about the economic perspective of this issue, the viability 
of this type of a plan and why or if we should be discussing 
this at the Federal level as a viable opportunity.
    I would like to just go through very quickly, and I know 
the chairman was looking at doing that, but if I could, just a 
real quick one, because I do have one more question and it is 
one that I would like to get into as well. Can we start right 
here with you, sir?
    Mr. Rowen. Thank you. I never like to consistently be at 
the end of the line.
    [Laughter.]
    Mr. Rowen. Pennsylvania is called the Keystone State for a 
lot of reasons. But when you look at the transportation system 
and the geography and movement of goods back and forth between 
where goods are produced and where they need to go, one of the 
largest areas of the Country population-wise and economically 
is the northeast. Any product that has to come into the 
northeast or be shipped out of the northeast to the rest of the 
Country goes through Pennsylvania.
    If you look at the geography of Pennsylvania in terms of 
the health of the road systems, Pennsylvania roads are some of 
the worst in the Country for one very specific reason. Well, 
two reasons, there is a lot of traffic. The second is that its 
north-south location is the worst possible for roads, because 
it is not cold enough and not warm enough. Roads deteriorate 
because it gets cold and warm and cold and warm. That freezing 
and thawing breaks roads up.
    So Pennsylvania has to take a huge amount of traffic to 
service the Country and yet we have an enormous repair bill 
every year because of our geography. If there is not a better 
reason to spread funding out as a national infrastructure, I 
can't think of one.
    Senator Rounds. Thank you.
    Mr. Gardner. Senator Rounds, we operate our business on a 
North American basis. So we are very reliant on the complete 
network across the Country and through Canada and Mexico. We 
really are supportive of a Federal program, because we need 
that integrated solution. There is probably not one State where 
we are not moving either product or raw material from and to 
our facilities, or to. So as a result, we really do need an 
integrated solution. We recognize that each State should pay 
their fair share as well. But having the integrated solution is 
really the only option for us.
    Mr. Riordan. Senator, having been involved in global 
manufacturing for about 35 years of my career, what I find 
interesting is the State of our broad union is so 
interconnected with the rest of the world these days, compared 
to 15, 20, 25 years ago. But the most preeminent example of 
that is, as you suggested earlier, no State is an island by 
itself. Here in the U.S., what is very difficult to get your 
hands around is how truly interconnected, in many cases whether 
it is pass-through freight from Pennsylvania through the 
heartland, out to the east coast, west coast, wherever it 
happens to be, it is very difficult for people not directly 
involved in this process to truly understand what the impact is 
of not having a federally functioning process for allocating 
resources in order to support the infrastructure. It is just 
crucial.
    Senator Rounds. Thank you. Mr. Chairman, my time is about 
up. I will yield back and we can proceed.
    Senator Inhofe. Thank you.
    Senator Vitter is here, who is the chair of the 
Subcommittee on Transportation and Infrastructure, we should 
have gotten to him earlier. Senator Vitter.
    Senator Vitter. No, I am fine to be here and listen to more 
of the discussion. Thanks, Mr. Chair, for holding this 
important hearing. Thanks to all of you for all of your 
testimony. Certainly, count me in, count me in as the Chair of 
the Infrastructure Subcommittee. Also count me in coming from 
Louisiana. We face absolutely these same challenges and needs.
    Actually, Louisiana is one of five States where the 
proportion of bridges that are structurally deficient is in 
double digits. Our figure is 14 percent. Another 15 percent are 
functionally obsolete. We rank 19th in the Nation for urban 
interState congestion, about 32 percent of the miles on our 
urban interstates are congested.
    In Louisiana, this is a critical economic development 
issue. I really think we have moved into a second stage of 
economic development. The first stage, I think, was dominated 
by a focus on incentives, getting industry to our State, which 
has been real successful.
    But I think we are in a second stage where the critical 
factors are not those incentives, it is capacity, 
infrastructure and work force capacity. Those are the two 
limiting factors that business leaders talk to me about all the 
time. We need capacity in terms of infrastructure, roads, 
bridges, also ports, waterways. And they need the capacity in 
terms of skilled work force, work force training. So I am very, 
very interested in this.
    I am going to repeat a comment I made at the last hearing 
we had in this committee on the subject. I want to encourage us 
to all sort of cut to the chase on the financing side. We tend 
to spend months around here talking about pie in the sky, 
financing ideas and having this broad debate that is pretty 
irrelevant in the real world. I would like to encourage us, May 
isn't that far away, right? So I think it is time to cut to the 
chase.
    In my opinion, and I am open to other ideas, in my opinion, 
that real world cut to the chase reality includes three big 
options. Maybe there are others, and I would love to hear them. 
But it includes three big options. First of all, the 
traditional gasoline tax, increasing that. In my opinion, that 
need to include a tax offset for middle class families, so that 
at least everyone except the very wealthy don't pay more 
Federal taxes, either on the income tax side or the withholding 
side. I think as a practical matter, there needs to be that 
sort of hold harmless if we increase the gas tax. I think that 
is a political reality, particularly on the House side.
    No. 2, a concept Senator Boxer mentioned a few minutes ago, 
which I am certainly open to if we do it right, which is 
repatriation of foreign income and elements of business tax 
reform. And No. 3, increased domestic energy production with 
that royalty and that revenue dedicated to infrastructure. I 
think that is the short list of real world, practical, doable 
solutions. But again, I am open to other ideas.
    So my question is, do you have a reaction to those three 
categories of ideas, and would you add anything to that shot 
list of doable, realistic financing ideas?
    Mr. Heminger. Senator, I will go first. I mentioned in my 
testimony I served on one of the national commissions that was 
created a couple of bills ago. We spent the better part of 2 
years looking for an alternative to the gas tax, and we 
couldn't' find one.
    Now, the general fund, obviously, is large enough to 
support an infrastructure program. But I think we have seen 
recently with all of these extensions the peril of relying on 
the general fund. The general fund has a lot of other things to 
do. In our State of California, we have had very bad experience 
being in the general fund and competing with other general fund 
priorities. So having a dedicated user fee I think is far 
superior. I really don't think there is any other revenue 
source large enough and consistent enough to support the 
program.
    Senator Vitter. Any other thoughts?
    Mr. Braceras. Yes, Senator, I think there are some key 
principles that Congress should consider when they take up this 
challenge. And that is the one of sustainability, one that will 
allow it to grow, one that is user-based and one that is 
transparent to the users. The users need to understand what 
they are paying for and what they are getting.
    So I agree with Mr. Heminger, a gas tax is a very direct 
way to do it. People understand where it is coming from, where 
it is going. In the State of Utah, we are addressing our 
growth. We are growing very fast. We are addressing our growth 
in terms of the mobility needs with the sales tax. The 
legislature has determined that 17 percent of the statewide 
economic activity is coming through the transportation sector. 
So they have decided that 17 percent of that statewide sales 
tax will be dedicated just to the mobility portion and the gas 
tax is being used to preserve, maintain and operate that 
transportation system.
    So Mr. Chairman, user base, one that is not a one-time 
funding source, but an ongoing funding source, provide 
sustainability and start to address some of the inflationary 
issues that we are dealing with as well.
    Senator Vitter. Any other thoughts?
    Mr. Gardner. Yes, Senator Vitter. I think we are supportive 
also of the gas tax. We think it is really the simplest way to 
put a user fee in place. It really does also encourage 
sustainability and energy conservation, so anything we can do 
to use less gasoline will be promoted by the additional tax.
    We also think it is affordable. We have seen that big 
correction in the cost of fuel in the last year, and we think 
to the most extent that is going to continue for some time to 
come.
    Mr. Rowen. To the affordability of the middle class, almost 
my entire work force is definitely middle class. We think about 
their incomes, because they get it from us. We think about 
their expenses. But the other thing we have to realize is that 
over the last 15 years there has been a significant economic 
advantage to gas efficiencies of most automobiles.
    So if you think about the impact of the tax, because it is 
paid on a per gallon basis, it can be somewhat mitigated 
because of increased efficiencies of gasoline.
    Mr. Riordan. One last comment, if I may, Senator. 
Manufacturers in general are very supportive of user fees in 
order to pay for infrastructure, pay for maintenance, pay for 
repair. One of the key concerns that we have is making sure it 
is sustainable, which I believe that a user fee would be.
    Concern on repatriation is that it may not be sustainable. 
It is not so visible, and it may be an easy solution from the 
standpoint of having a perception of something else paid for, 
but back to the comments that were made before, we believe it 
is critical that the costs line up with development and that it 
is a transparent basis for everybody.
    Senator Vitter. Thank you all very much. I appreciate all 
of your testimony and all of your work.
    Senator Inhofe. Thank you, Senator Vitter. Senator Boxer.
    Senator Boxer. Thank you, Mr. Chairman. When Senator Vitter 
and I worked together on funding ideas, I want to pick up on 
his point. That was the reason I asked you, Mr. Braceras. I 
know that Senator Lee believes in devolving. And I know Senator 
Hatch believes in the trust fund. But he and Senator Wyden need 
to come up with a plan.
    Now, I would ask unanimous consent, Mr. Chairman, I just 
want to put into the record a memo that I put together with 
various funding sources. Could we put that into the record?
    Senator Inhofe. Yes, without objection.
    [The referenced information follows:]
    Senator Boxer. OK. And I want to make it clear that Senator 
Vitter and I totally agree that there ought to be an offset if 
we go with a higher gas tax for middle class and working poor. 
We have put it out here in this paper. If the option chosen is 
a 6 cent gas tax increase, the average household drives 15,000 
miles a year, then the average household will pay an additional 
$36 in gas costs. Therefore, the household would receive a 
refundable tax credit of $36.
    So it is pretty straightforward. Because we all don't want 
our middle class to be paying more. This makes sense.
    I also want to point out, Mr. Chairman, something that I 
fail to mention as often as I should, which is the cost to the 
automobile owner of roads that are in disrepair. You keep going 
over those roads, and you know what that does to your car. I am 
trying to get the average cost. But it is significant.
    So when we do repair our roads, we are saving costs. It is 
true, it is sort of hidden. But it is there, and it is very 
important.
    So in this paper that I put out, I sent it over to 
Congressman Ryan and Congressman Levin over there. I never 
heard back from them. Everyone just seems to be hiding 
underground here. So I never heard back from them. Finally I 
heard from Congressman Levin, he said thank you for your ideas. 
I was hoping for a little more.
    But what we did is we said, one way to go is the Chamber of 
Commerce way, which is an increase in the gas tax and with an 
offset. That was one way to go. Another way to go was following 
the Virginia model, which is replace all existing highway trust 
fund fees with one fee on the wholesale price of fuel. That is 
the way they went.
    Another is adjusting existing fuel fees, and that is all 
going to be in the record for you to see. Another is the 
repatriation, plus a smaller increase in the gas tax. And then 
another is a new fee on the sale of new and used vehicles, 
which if you put a 4 percent fee on the sale price of new and 
used vehicles, you get $89 billion over 6 years, which is 
enough to fill the hole. And another is an honor-based fee on 
vehicle miles traveled. We also felt, and I know this is 
controversial, that we ought to look at different bonding 
authorities. Because the Build America bonds have been very, 
very successful.
    So here is the thing. I will put this in the record, and it 
doesn't reflect anybody's opinion but mine. But it shows that I 
am willing to go to all of these and give an offset to the 
middle class and working poor for that.
    Reports show that crumbling roads cost $750 per vehicle 
each year. Can you imagine? That is wear and tear. So all this 
talk about $36 pales in comparison to the benefit of this. So I 
am going to close and say this. I am working with the 
construction industry to get us all together in April, 
Republicans, Democrats, business, labor, everybody in between, 
State, I met with the National Association of Counties 
yesterday. And I think frankly, I am a person that used to 
organize around issues. I still organize around issues. If I 
don't see anything moving forward, if there is just a lot of 
ho-hum, I think we need to get together and stand together and 
show the desperate situation we are in. I know no one hates 
these short extensions more than my chairman. He hates it 
because of how expensive it is.
    So can I ask each of you if you would be willing, if we do 
put together such a bipartisan event, would you be willing to 
either come or send a statement? I am seeing everybody nodding 
yes. Well, that means a lot to me. Because I think you are such 
compelling witnesses, and I thank the Majority and the Minority 
side for bringing together such a wonderful, astute group. I am 
just saying now, I am very calm on the outside. But on the 
inside, I am not calm.
    Senator Inhofe. You are a tiger.
    [Laughter.]
    Senator Boxer. I am not calm. Because I don't like where we 
are headed now. I don't see it. The only action I see is from 
this committee. And it is great. But where is everybody else?
    So I want all of you who are here today and in the 
audience, please these other committees and the House people. 
They all say they want to do something. But they all said that 
the last time and we got stuck with this little extension which 
is really dangerous for our economy. It is dangerous for our 
citizens. It is costly, it is bad.
    So on the inside, I am absolutely desperate to get this 
done. As Steve said, it is not so much about my State--it is. 
We need the Federal help. But honestly, it is about most of the 
other States. Because we do have that long construction season. 
With climate change, we don't even have rain any more, it is 
the saddest thing. For whatever reason it is, we do have a 
drought. And we do have a longer construction season than 
anyone else. So we have fewer problems in this regard. And we 
can advance funds, because we are a nation State, we are I 
think the seventh or eighth largest nation, considering our 
GDP.
    This is about the Country, one Country under God. That is 
what this is about. So Mr. Chairman, I just am so grateful for 
your leadership and look forward to continuing our working 
together.
    Senator Inhofe. The one thing you didn't mention, the 
reforms that come. I have to say this in a complimentary way 
about Senator Boxer, because there are some things that we did 
in our reforms, and this goes back to 2005, it goes to the 27-
month bill, that I didn't really think we were going to be able 
to get those two. That is a huge thing from a conservative 
perspective and advantage.
    By the way, I might mention I am visiting with the ACU this 
afternoon on this very subject, which I will cover in just a 
minute.
    We are joined now by Senator Capito.
    Senator Capito. Thank you, Mr. Chairman. I would like to 
thank the ranking member, because I was on the conference 
committee for MAP-21 and we just had our West Virginia 
transportation folks in yesterday. Some of the reforms that 
were in that bill, we are reaping the benefits, they were very 
complimentary on how it is working State to Federal. Hopefully 
we can continue to do that.
    One of the things I wanted to ask about, and I apologize 
for not being here for the initial testimony, is the public-
private partnerships. That is another thing that I heard my 
State DOT, is we are really maxing this out in West Virginia, 
going in a cautious way. But it is incredible to me the amount 
of savings that these three Ps can do for a State and really 
stretch our dollars. Route 35 in my old congressional district 
is a great example. We are about ready to let a contract, or 
they have a request for bids right now.
    So I would just ask one question, and I have two questions. 
So whoever wants to answer this, maybe Mr. Braceras. What 
experiences have you had with the experience of PPPs, and do 
you have any suggestions for the next generation of PPPs?
    Mr. Braceras. Thank you, Senator, for that question. I 
think first of all you have to look at what you would define as 
a P3, a public-private partnership. It is really a spectrum of 
how you do your work. We outsource almost all of our design 
engineering, most of our construction engineering and obviously 
all the construction. We were the first State to utilize 
design-build on a highway infrastructure, one of the first 
States to use construction manager general contractor.
    Basically, the more we can define outcomes that we want to 
achieve and leave the means and methods to those who are doing 
the work, the better we are going to see better outcomes, we 
are going to see better value and return to the taxpayers. So I 
encourage further any expansion, any abilities to help bring 
the private sector in as partners in delivering our program. We 
are a relatively small State, and some people look at P3s as 
maybe under a tolling arrangement. We have done some analysis 
on that. We have also looked at availability payments in doing 
this as well.
    So all of these are tools. I don't believe they are a 
financial answer to our transportation system. But I think they 
are important components that we need to keep available.
    Senator Capito. I think they add predictability, too. And 
at this point, when we have low interest rates, this is really 
where we should be maximizing this opportunity.
    I am going to pivot here to Mr. Riordan and ask a question 
on ground level ozone. Ozone in a highway hearing, yes, we 
wonder about that, but they are very linked, as you know. EPA 
recently proposed a change to the national standard for ground 
level ozone that will most likely end up between 60 and 70 
parts per billion. We don't know exactly where they are going 
to set that standard. But my entire State would be out of 
compliance, the State of West Virginia, meaning significant 
highway projects that are vital to West Virginia could be 
delayed or compromised. And those jobs would be lost.
    Let me just give you an example. If you have ever been to 
the Greenbrier, which I hope you all go and please visit, it is 
a very rural part of West Virginia. That county is Greenbrier 
County. That would be out of compliance with the new ozone 
limits that are being talked about.
    So I would ask you a question. What difficulties could 
States face in implementing these new measures to meet a more 
stringent ozone standard?
    Mr. Riordan. It is a very significant concern on the part 
of manufacturers, Senator. I think the challenge that we see as 
manufacturers and again, based on my role as the chairman of 
the Small Medium Manufacturing Group which represents 12 
million of the 13 million manufacturing folks that are working 
here in the U.S., a key concern is will it only defer or delay 
increased costs from a highway standpoint, but the broader 
concern that we have as it relates to, as you move closer to 
the effectively background level of ozone, costs go up 
exponentially and the benefits go down dramatically. Our 
concern is very, very significant as it relates to, back to 
your point of the entire State of West Virginia. Our analysis 
shows that about 97 percent of the U.S. potentially would be in 
a non-attainment zone, which would de facto freeze development 
from a manufacturing standpoint. So this is a huge concern, not 
only as it relates to our quest in terms of moving the Highway 
Bill forward and continued infrastructure development, but the 
broader manufacturing industry at hand.
    Senator Capito. Right, and then that obviously is 
transportation projects as well, particularly larger ones.
    So Mr. Chairman, I would like to say that I know this is an 
area where you have great concern as well. It is amazing to me 
that we are going to put new standards on ozone regulations 
when the compliance hasn't even been achieved to a significant 
amount in the former standards that were placed upon the rest 
of the Country. So I want to join with you and shed a light on 
this and see how we can do this better. I think there are lots 
of ways we can.
    Thank you all very much.
    Senator Inhofe. Thank you, Senator Capito. Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    I want to thank Senator Capito for bringing up the question 
of ozone. There are two things I find frustrating about this 
new rule. Jurisdictions that have made progress in actually 
lowering the ozone level are now being rewarded with the back 
of the hand and being found in non-attainment, after having 
made progress. Also so many areas, including perhaps, you are 
familiar with DeSoto County in Mississippi, which is a suburban 
county of Memphis. There is nothing that the activities in 
DeSoto County have done to raise the ozone level. It comes from 
the west and it comes from the metropolitan area. And yet 
development and job creation are being stifled in this suburban 
county, through no fault of their own. And there is really very 
little they can do to prevent it, since the ozone comes from 
someplace else. So thank you, Senator Capito, for mentioning 
that.
    Mr. Braceras, let me preface my question with a fairly 
lengthy beginning. The President recently issued an executive 
order. It exposed the area where Federal agencies will be 
required to follow floodplain management, expands it from the 
100-year floodplain to the 500-year floodplain. Currently there 
are projects to raise roads to above the 100-year floodplain to 
address the risks. Now that will not be enough.
    There will be increased costs because of limitations on 
building in the floodplain. There will also be costs for 
mitigating any impacts to the floodplain and complying with 
``zero rise'' policies that say a project cannot have the 
effect of increasing flooding. The rule would be used by 
Federal agencies overseeing new infrastructure projects in 
transportation, energy, housing and water supply. Agencies will 
be required to choose one of three approaches when building or 
completing maintenance to infrastructure. One, use the best 
available climate science, or two, build two feet above the 
100-year flood elevation as a 1 percent annual chance of 
flooding that instance, or three, build to the 500-year flood 
elevation. There is a .2 percent annual chance of flooding in 
that instance.
    The rule could have significant impacts to the distribution 
of Federal highway aid, USDOT TIGER grants, HUD CDBG grants, 
Federal loan guarantees, FEMA flood insurance and flood plain 
management and disaster response programs. What impacts related 
to cost would your member agencies face, Mr. Braceras, if they 
were required to build or repair Federal highways two feet 
above the current 100-year flood elevation?
    Mr. Braceras. Senator, I always struggle with specific 
answers being given to States in terms of how to solve issues. 
Everything that we do we need to evaluate the risks, the 
benefits and the costs associated with that and make strategic 
decisions on what is best for the taxpayers, their safety and 
bring that all together.
    Now, Utah is a relatively dry State. But believe it or not, 
we have areas that are dry washes that have been defined as 
navigable waterways and require extensive permitting in order 
to make decisions. I would be concerned about the ability for 
States to make the proper decisions for infrastructure 
preservation. So if we are going to have to touch a piece of 
roadway or bridge, and as soon as we touch it we are going to 
need to bring it up to a new standard, that keeps States and 
municipalities from doing the right treatment at the right time 
and thereby costs taxpayers more in the long run and maybe 
creates unsafe conditions.
    So every time we make a decision, we should evaluate it in 
the context of the benefit cost in the larger picture, not just 
regarding a specific resource.
    Senator Wicker. And when you mention cost, that is cost for 
mitigation, for change design or change location, or for 
different or more expensive materials. Would anyone else on the 
panel like to jump in and help us understand this issue better? 
Mr. Riordan?
    Mr. Riordan. Senator, we have significant concerns on the 
broader context of obviously this, along with the waters of the 
U.S. regulations that are being promulgated. In our mind, 
frankly, it is similar to discussion we just had on ozone, 
where NAM has put together a study that shows the ozone 
regulation would be the most expensive rule ever promulgated 
within the Federal Government, costing a potential $2 trillion.
    A key concern is, I don't have the facts behind what this 
proposed regulation would cost in terms of floodplain. But 
again, it is a question of, as I would call it from a 
manufacturing standpoint, what problem is it we are trying to 
solve here, and is this the most cost-effective way of doing 
it.
    Senator Wicker. Thank you. Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Wicker.
    We are going to recognize Senator Rounds, but let me kind 
of announce this, so that my two members who were not here at 
the opening of this meeting. I commented that confession is 
good for the soul, and I confess that 25 years ago, Connie Mack 
from Florida and I were the two fathers of devolution, until we 
realized why it wouldn't work. The reason that Senator Boxer 
brought up my concern as it affects our defense system is that 
I was the ranking member on the Senate Armed Services Committee 
in addition to working on this committee.
    So after everyone is all through and gone, I am going to 
ask you to go ahead and continue down to respond to the 
questions that I first asked. You have done a pretty good, and 
Senator Rounds brought it up, but I want to talk about it in a 
little more detail. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    I would like to followup on the line in terms of the 
streamlining that could be done to save dollars. I think that 
is one of the most important things we have to do, in order to 
maintain credibility when it comes to how we spend tax dollars, 
whether they be at the State level, local level or at the 
Federal level.
    Sometimes I am not so sure that we are seen as looking at 
saving dollars here at this level. In fact, every time we seem 
to get involved in a project, it gets more expensive. A lot of 
that has to do with a regulatory process that creates expense. 
I understand there are good people who have good desires to 
have things work appropriately and to protect natural resources 
and so forth. But it comes at a cost. And part of the cost is 
that people who are paying those taxes wonder why it costs more 
to get projects done.
    If we are going to ask States to increase gas taxes or if 
we are going to ask people to pay a higher gas tax or any other 
type of a tax, I think we ought to be able to show them that we 
are doing the best we can to be efficient in the delivery of 
those services. Could you help us a little bit with any 
suggestions you may have in terms of how we streamline the 
process, save dollars, and for lack of a better term in the 
business community, talk about getting more bang for our buck?
    Mr. Heminger. Senator, I would like to return to the word 
that Carlos used. It is risk. I think we have designed a system 
now that tries to suck every little bit of risk out of a 
project development process, and in doing so, we have 
guaranteed that everything will take too long and cost too 
much. I think we need to be candid with the American people 
that if you want it to go faster, we might have to take a 
little risk, and something might go wrong and we might have to 
start over and do it again.
    But we have been doing that to a considerable extent in our 
region, in our State, where we have begun design activity 
before we have an environmental clearance. And we are taking a 
risk that the environmental process won't surprise is with 
something. And sometimes we are surprised. But more often than 
not, and we have gained that time on the schedule by taking 
that risk.
    I think the more the Federal Government can formalize that 
process and be a partner in taking some risk, I think risk-
taking and entrepreneurship is rewarded very often. But 
sometimes you fail. I think we have to be willing to fail a 
little bit more to make our system work better.
    Mr. Braceras. Senator, following on Steve's comments, the 
only one who doesn't make a mistake is somebody who doesn't do 
anything. What I try to encourage our Staff in the Utah 
Department of Transportation is to be innovative and to try new 
things.
    What I talked about in my testimony is anything we can do 
to move toward an outcome-based program as opposed to one that 
has been for many, many years focused on process, and that is 
true with State level agencies as well as with Federal 
agencies. We have almost gotten to the point where people are 
afraid to make a mistake. And the best way not to make a 
mistake is not to make a decision. So during the process, we 
can pull that process out and draw that process out longer. 
There is no real reward for getting to that outcome, to that 
final decision point.
    So anything Congress can do to identify what the goals are 
and that all Federal agencies and State agencies understand 
what those goals are, as few restrictions on that process, 
because that allows innovation to come into play and allows us 
to be able to focus on how we are going to achieve. Once people 
own the how, once those people doing the work have the ability 
to determine how they are going to accomplish that goal, they 
become accountable and you find innovation taking place.
    So outcome-based, less process-based.
    Senator Rounds. Anyone else?
    Mr. Riordan. Senator, in my testimony I mentioned that our 
costs of transportation delays, poor productivity, customer 
frustration adds about 1 percent to our costs. Several Senators 
earlier today mentioned the cost of car repairs. Mind you, that 
is only the tip of the iceberg on the consumer side.
    I think the business community clearly understands and can 
quantify the impact to it. But eventually a lot of that gets 
passed on to consumers, one way or another. I think what the 
broader concern is the visibility behind what does this really 
cost the average middle class person, in terms of car repairs, 
delays in their own personal life, being late for work and 
getting docked against that, and all the other drama that goes 
with the poor and deteriorating infrastructure we have.
    I think we talked about $36 gas tax increase compared to a 
lot more than that. How do we make what I would describe as the 
business case to the broader U.S. consumer of understanding 
that and recognizing this gas tax increase is a bargain? Any 
business person would take this deal in a second with a five to 
ten to 20 times payback.
    Mr. Gardner. I think we talked about before really any 
opportunities to simplify processes and challenge the status 
quo is well supported by us. We are seeing some of the intents 
of that in the programs. We talked about environmental 
permitting is really probably the biggest bottleneck. So 
anything we can do in that area is going to be helpful.
    I think the most important thing is just to make sure that 
we are making the right investments and that the investments 
are focused on congestion and road quality. Because we can 
directly correlate congestion to additional costs for our 
industry.
    Mr. Rowen. Leadership. It is all about leadership. Get the 
message out. We have all heard today, and every one of us 
sitting in this room today understands that raising the gas tax 
is going to save virtually every American money, if not a lot 
of money, in other areas. So you simply have to, the American 
public will buy something that is a good deal. They are great 
at recognizing deals.
    I think that the fear that comes out of the political 
process of the concept of raising taxes is, can be mitigated by 
leadership, by a clear, concise message that you are doing this 
to make things better for all Americans, and in the end, it is 
money well spent.
    Senator Rounds. Mr. Chairman, I think the group here that 
has answered the question tells us, No. 1, they are prepared to 
make an investment, but they expect us, with leadership, to 
provide that it is done as transparently as possible, and the 
delivery, if we are going to expect people to put more dollars 
into the system, we are going to make a commitment that we will 
see that they are spent as efficiently as possible. I think 
that means we have a big job ahead of us.
    Senator Inhofe. Thank you very much, Senator Rounds. We are 
going to recognize Senator Carper, but I want to make a comment 
here about this. A lot of people don't understand what we are 
talking about. First of all, I would like to have us not really 
talk about a gas tax increase. It is a user fee. Now, user fees 
are popular. Look at the inland waterway user fee, the 
stakeholders, those who are paying for it are the ones who want 
to have it. So I think that is a good way of putting it.
    Second, keeping in mind, as I said in my opening statement, 
that this is what we are supposed to be doing here. Read the 
Constitution. In fact, I will quote something if you will bear 
with me a second, Senator Carper.
    Senator Carper. Take all the time you want.
    Senator Inhofe. The American Conservative Union, in their 
document that they helped us get this passed on the 27-month 
bill, they are saying, ``Not passing a bill will hurt our 
already suffering economy.'' And then the two elements, quoting 
the Constitution, the two elements that are the most basic 
responsibilities of the Federal Government are national defense 
and the development of a national transportation 
infrastructure.
    I say this, and we have to keep saying it, because somehow, 
people forget what we are supposed to be doing here in 
Washington. This is what our founding fathers said, it was 
their idea. It was put forth. The reason I mention that Senator 
Boxer talked about my concern over defense is that I had that 
job as ranking member on Armed Services. So I made quite a 
study, I say to my good friend, Senator Carper, of Eisenhower 
and the statements that he made back when he first gave birth 
to this concept.
    The last one I will leave with you, he said, ``InterState 
commerce doesn't stop at the State boundaries. No State is an 
island,'' as you repeated from my statement before. It is just 
as much about national defense as it is interState commerce. 
That is what we are talking about here.
    Senator Carper.
    Senator Carper. I am Tom Carper, and I approved this 
message.
    [Laughter.]
    Senator Carper. As the senior Senator from first State to 
ratify the Constitution, I applaud your use and reference to 
the Constitution here this morning.
    Welcome, everybody. It is great to see you. Thank you so 
much for joining us and trying to help us find our way through 
an important issue. Colleagues hear me talk a lot about our 
jobs. Our job is not to create jobs. My job as Governor was not 
to create jobs. Our job is to help create a nurturing 
environment for job creation. And you can't do that without a 
great transportation infrastructure.
    Since 1993, as you know, when we set the Federal gas tax at 
18.4 cents, 42 States have increased their State gas tax rates. 
Twenty States have taken action to increase revenues for 
transportation in just the last 5 years. Eight of these were 
either in 2013 or 2014. I understand that 12 more, another 
dozen, are considering action this year or next.
    How many of these States have said, we are ready to go it 
alone and we don't need a Federal partner? How many of those 
States have said that? Let's go down the list. Mr. Braceras?
    Mr. Braceras. Thank you, Senator. The State of Utah has 
made an amazing commitment to transportation. Utah recognizes 
that it is the backbone and one of the foundational elements 
for our economy. So we have made a large commitment, almost 20 
percent of our statewide sales tax goes to transportation, 24.5 
cent gas tax goes to transportation. But we rely on a Federal 
transportation system, and it is very important to us.
    Senator Carper. Thank you.
    Mr. Heminger, how many States have said, well, we are ready 
to do this by ourselves, we don't need that Federal money?
    Mr. Heminger. Certainly not California. In 1993, the 
statistics you are quoting, Senator, our gas tax was 16 cents. 
It is 46 cents today. So we are certainly willing to do our 
share. But we are looking for a Federal partner to come along 
with us.
    Senator Carper. Thank you. Same question, Mr. Riordan.
    Mr. Riordan. Senator, I am not familiar with the specific 
facts in the State of Wisconsin, but I don't believe they are 
willing to go it alone.
    Senator Carper. All right, thank you.
    Mr. Gardner.
    Mr. Gardner. I am also not familiar with the State of 
Illinois, but I can say that we are supportive of a federally 
directed program, because our business relies on the complete 
transportation network to deliver our products.
    Senator Carper. Thanks. And finally, Mr. Rowen.
    Mr. Rowen. Senator Carper, earlier I was talking about the 
geographical significance of Pennsylvania, the fact that so 
much traffic going into the northeast goes across Pennsylvania, 
and then the geographical impact of the weather on the 
Pennsylvania roads. So there is just no way Pennsylvania could 
be forced to pay for all the maintenance of the roads in 
Pennsylvania.
    Senator Carper. Thank you. My staff, at my request, did 
some analysis. They found in States that have raised revenues 
for transportation, 90 percent of legislators who voted for a 
revenue increase won their primary, won their general election. 
They were re-elected. But so, over 90 percent of them were 
Republicans, just under 90 percent of them were Democrats. What 
lessons can we take from that information, from action at the 
State level? Mr. Rowen?
    Mr. Rowen. Pennsylvania just elected a new Governor. And he 
was elected on the idea that he was going to tax natural gas 
coming out of the State. So the idea that, and I understand it 
is a different kind of a tax, but Pennsylvania looked at the 
need for infrastructure and said, we need to get more revenue. 
And Governor Wolf was honestly willing to put on the table that 
process. So he clearly did exactly what you are recommending.
    Senator Carper. Thank you. Mr. Gardner.
    Mr. Gardner. I think it demonstrates that the general 
public is willing to support this additional tax. As we have 
talked about already this morning, it just makes good business 
sense. A small increase in your annual costs has payback in 
terms of reduced repair costs to cars and certainly for 
businesses, it has a great payback in terms of reducing 
congestion.
    Senator Carper. Thank you. Mr. Riordan, any lessons learned 
you think we could take from those statistics I just cited?
    Mr. Riordan. Good question, Senator. I believe that the 
American public clearly believes in the fairness principle of 
user fees make sense for people who are using the roads and 
infrastructure that goes with that. That said, I think 
manufacturers in general support all the above discussion in 
terms of how to fund this as it relates to recognizing, back to 
the chairman's comments earlier, about the criticality of the 
infrastructure, whether it is public-private partnerships or 
other mechanisms here. But this issue is much, much too 
important to leave languish. Because frankly, we continue to 
lose ground against our major competitive countries, China in 
particular. And frankly, our long-term best interests are best 
served by getting off of this and developing a coherent, long-
term approach.
    Senator Carper. Thank you. Mr. Chairman, my time is about 
to expire. Can I just have one more minute?
    Senator Inhofe. We actually had two rounds.
    Senator Carper. Thanks so much.
    I want to touch again on what you just said about all of 
the above. Because we have an all of the above energy policy, 
which I think is good. For many years, and we talk about our 
baseload for electricity generation, for many years it was 
coal, it was nuclear, 40 percent coal, 20 percent nuclear. Coal 
is still, close to 30 percent, is going to be significant for, 
I think, a long time. Natural gas is close to 30 percent now I 
am told. But those were basic, the baseload.
    I think for transportation funding, we need a baseload. And 
I believe maybe most appropriately it is the user fee. The 
baseload could include things like, we are going to open up 
some new lands off of Virginia or North or South Carolina or 
Georgia, there would be leased income from that, there would 
be, if there is oil and gas out there, there would be some 
revenues generated. That could be part of the all of the above 
approach. Then we could actually find ways to save money. The 
Department of Transportation has a bunch of ideas.
    When the last 2-year transportation bill was put into 
effect, I think they looked hard to find ways, how to rebuild 
roads, highways, bridges in a more cost-effective way. So that 
could be, if you will, part of the all of the above approach.
    But I have been thinking a lot about it, and I think the 
President has a proposal. I am not a big fan of repatriation, 
but the President has an interesting proposal and that could be 
part of an all of the above approach as well. So thank you for 
mentioning that term.
    Back to you, Mr. Heminger, if I could. Again, my question 
was, what kind of lessons should we take away from the fact 
that over 90 percent of the Republican State legislators got 
re-elected after voting for user fee increases and almost 90 
percent of the Democrats got re-elected? What should we take 
from that?
    Mr. Heminger. I think the simple answer is that most 
Americans do understand the user fee concept. It is sort of the 
PR genius of our profession that we have labeled a user fee the 
gas tax. And I don't know when we started doing that. But that 
was our original sin.
    But the public understands that they are paying a fee that 
will be used to fix their roads and transit systems. They get 
that connection and they support it.
    Senator Carper. I like that, original sin. That is good.
    Mr. Braceras. Senator, I agree with Mr. Heminger on the 
need, that it needs to be linked to the user. That is an 
important concept. But I also believe that the public needs to 
know what they are going to get for their investment. They need 
to know what those outcomes are going to be, and we as 
government officials need to be absolutely transparent on how 
their money is used and what we achieve with their money. I 
think if you can demonstrate that, the public can recognize a 
good business deal.
    Senator Carper. Good, thank you. We often talk about the 
jobs that could be created from a full-funded transportation 
bill. I have heard 600,000 jobs, 700,000 jobs. A lot of jobs 
for people, frankly, who have been looking for work for quite 
some time. We also need to think about the investments we could 
make in our transportation infrastructure that could have 
broader economic impacts.
    A recent report by McKinsey Global Institute found that the 
U.S. must spend at least, get this, $150 billion more a year on 
infrastructure through 2020 to meet our Country's needs and to 
maintain global economic competitiveness, $150 billion. The up 
side of this was that in doing so, it would add 1.5 percent to 
our annual economic growth and create at least 1.5 million 
jobs. So that is 1.5 percent addition to economic growth and 
about, almost 2 million jobs. From your perspective as owners 
and users of this system, does any of this sound even close to 
being true and accurate? Mr. Braceras?
    Mr. Braceras. I don't have the numbers off the top of my 
head, Senator, but yes, absolutely. I think we talk sometimes 
too quickly about the benefits of a transportation bill and 
what they have on the construction industry. And those are 
important jobs. But really what is important is how well the 
transportation system works for the business owners who we have 
here today. They will make different and more effective 
decisions if they have a transportation system that is safe, 
reliable and has the lowest cost of ownership for them.
    So I think that is the important part of our transportation 
system.
    Senator Carper. Thank you. Mr. Heminger.
    Mr. Heminger. Senator, I don't think it is an accident that 
what we regard as the golden age of the American economy in the 
last century coincided with when we were building the 
interState system, any more that I think that it is an accident 
that when you see the economies in Asia and to some extent in 
Europe taking off because of infrastructure investment, that is 
not a coincidence, either. We need to get back to that business 
here in America.
    Senator Carper. Thank you. Mr. Riordan.
    Mr. Riordan. Senator, manufacturers in general absolutely 
agree with the points you made. Frankly, the National 
Association of Manufacturers has developed a similar study that 
shows the same kind of comprehensive benefits available to us 
if we are smart and move this forward.
    Senator Carper. Good, thanks.
    Mr. Gardner. Senator, we also agree. I think what we have 
seen in manufacturing is that for every job we create, there 
are probably another two and a half jobs that are spinoffs as 
well. So it is quite probable, what you are seeing there. From 
our company's perspective, we are making investment decisions 
based on what we see in terms of infrastructure today. So any 
commitment we can make to that infrastructure will help us make 
better decisions.
    Senator Carper. Good. And last, but not least, Mr. Rowen.
    Mr. Rowen. It is incomprehensible, as a business owner, for 
an entity or organization not to invest in infrastructure, if 
all the economic numbers say that the amount of money you 
invest will pay dividends tenfold over in the future. It is 
incomprehensible that could happen. And this is a Country that 
we talk about capitalism. Capitalism is the root of our 
economy. This is a capitalistic concept. It is a business 
decision, pure and simple. As leadership, you simply have to 
sell it. You have to sell it first to the people who make the 
decisions, so it is your Congress that authorizes this. Then 
you have to simply sell what is an absolutely obvious decision, 
a business decision, to the American public.
    Senator Carper. Good. I think it was Andrew Jackson who 
used to say, one man with courage makes a majority. Mrs. 
Jackson said, one woman with courage makes a majority.
    [Laughter.]
    Senator Carper. But we need some men and women around here 
with courage, political courage, to do what I think most of us 
know needs to be done. And I am encouraged that some folks on 
this committee, a number of my folks in the Democrat and 
Republican party here in the Senate and hopefully in the House 
will be willing to show that kind of leadership and courage. If 
we do, people will join us.
    I think at the end of the day, we will be rewarded for 
that. Leadership has been defined as the courage to stay out of 
step when everyone else is marching to the wrong tune. I think 
people want us to make the right decisions. My hope is that we 
will. Thank you.
    Senator Inhofe. Very good, very good, Senator Carper.
    As I said, I want to give the last three an opportunity to 
respond to the question that I opened up with. I say to my 
friend, Senator Carper, who is one, a lot of people are not 
aware that our old friend from Florida, Connie Mack and I, 25 
years ago, were the fathers of devolution until we realized 
that it wouldn't work. So they are responding, and we had just 
gotten through two of them.
    But before doing that, we have our Secretary of 
Transportation here, Mike Patterson. Hold your hand up, Mike.
    And of course, everybody knows Gary Ridley.
    Let me ask one question to you, Mr. Rowen. You said 
something I didn't know. Did you say, did I understand there is 
some dedication of part of the revenue that is derived in the, 
either from natural gas or oil in Pennsylvania under your new 
Governor? Is that correct?
    Mr. Rowen. Under the previous administration, it was my 
understanding that they were charging an impact fee at 
extraction. But I believe that amounted to something like 1 or 
2 percent.
    Senator Inhofe. But it was something, a recognition. See, 
most people think when you are talking about oil and gas 
production that we are talking about the western United States. 
That is not true anymore.
    Mr. Rowen. No, absolutely not.
    Senator Inhofe. With the Marcellus in Pennsylvania and New 
York, I have heard arguments, pretty persuasive arguments in 
Pennsylvania, that it could be your second largest employer 
right now. So it is a major thing.
    And that is a source. And that source was one of the three 
that Senator Vitter brought up. No one responded to that, the 
other two but not that. Would anyone want to respond to that in 
terms of a partial source that is out there? If we can get to 
the point in this Country when we start, and we will get to 
this point, start really having the Federal land give us the 
benefits that we are currently getting from State and private 
land, while we have gone, increased by 61 percent in State and 
private, we have actually decreased by 6 percent in Federal. I 
see that as an opportunity to go out and develop a new, 
consistent source to supplement any changes that might be made 
in the user fee.
    Does anyone want to refer, make any comments about that 
portion of his suggestion?
    Mr. Heminger. I guess, Mr. Chairman, just in one respect, 
as you know, the Federal gas tax is not levied on consumers. It 
is really levied at the refinery, and everybody down the chain 
just reimburses the one ahead of them. So to the extent that 
you already have the tax at the refinery, it is not too much 
farther to take it back to the place where you are digging it 
out of the ground.
    Senator Inhofe. Very good point.
    Mr. Heminger. So it seems to me from the user fee 
perspective, it would be consistent. One thing I would be 
concerned about is, I know oil and gas exploration can be a 
pretty risky business and it can go through cycles. I think one 
thing we always look for, and you have been emphasizing, is 
predictability and reliability of the revenue stream.
    Senator Inhofe. Any other comments?
    Mr. Riordan. Mr. Chairman, I would agree with Mr. 
Heminger's comments. And one other additional point is the 
transparency that goes with that, whether it is the wholesale 
level or extraction level.
    Senator Inhofe. Sure.
    Mr. Riordan. But I think it is important to be clear and 
transparent in general as well as with the American public 
relative to where this is coming from, and again I would echo 
the comments of the hit and miss concern that the extraction 
level, the faucet can turn on real hard and it can't turn off 
real hard, as you know.
    Senator Inhofe. I understand that. Also, I might suggest 
there is a way of doing this in a more consistent basis. I come 
from an oil and gas State, and we know how to do those things. 
Any comment on that, Mr. Gardner?
    Mr. Gardner. Yes. I was going to say that I think the 
Federal leadership is absolutely critical. We need a complete, 
integrated solution across the United States. I think the gas 
tax, or a user fee, is a very simple concept that can be sold, 
and we see it supported at the State level.
    I would also say that the States and all the companies that 
use the systems also need to demonstrate they are making 
investments. I can say from an Ingredion perspective, we are 
investing in transportation management systems so we can be 
smarter with the use of trucks. We are maximizing payloads so 
we can use less trucks and we are redesigning our distribution 
network to minimize the number of miles.
    So we are making our effort. I think we need a complete, 
integrated solution to beat this problem.
    Senator Inhofe. We have actually gone over our time, but 
since I initiated a question to be responded to by all five, I 
think Mr. Heminger was as far as I got. Any comments for the 
last three having to do with devolution?
    Mr. Riordan. Mr. Chairman, I think you, as they say, hit 
the nail right on the head. This is one of the fundamental legs 
of the service and the contribution from the national or the 
Federal Government. I find it hard pressed, and frankly, 
manufacturers in general find it hard pressed on how the 
Federal Government can walk away and pass the problem of 
funding or not back to the States. The criticality of the 
interState highway system, as you alluded to earlier, was very 
much dependent upon planning and vision at the Federal level. I 
think we would strongly encourage that to continue.
    Senator Inhofe. Yes, thank you. Agreed?
    All right. Let me thank our panelists. You have been very 
helpful. We have held you longer than we had said we would. But 
the intensity of this issue is so significant. As you have 
witnessed, it is one that is bipartisan. It is one that we all 
know. I think one of my jobs is to kind of explain the 
Constitutional requirements that we are talking about when we 
talk about a system.
    So we are going to try to make this work this time. I 
remember, I have been at this for so long, I remember back when 
I was in the House T&I Committee, we had one problem with the 
Highway Trust Fund. We had too much surplus. Are you guys old 
enough to remember that? Well, we did. And we all know what 
happened to that, and that is why we need to get back and start 
doing the job that the Constitution says that we should be 
doing.
    With that, we will adjourn.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]
    [Additional material submitted for the record follows.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                           [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
